Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




     WORKPLACE VIOLENCE
      Perceptions and Experiences of Local
Public Assistance and Child Support Enforcement
               Staff and Managers




                       JUNE GIBBS BROWN
                        Inspector General

                            MARCH 2000
                           OEI-06-98-00044
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Region VI prepared this report under the direction of Chester B. Slaughter, Regional
Inspector General and Judith V. Tyler, Deputy Regional Inspector General.

Principal OEI staff included:

DALLAS                                          HEADQUARTERS

Blaine Collins
                                 Alan Levine, Program Specialist
Ruth Ann Dorrill
                               Joan Richardson, Program Specialist
Marnette Robertson
                             Linda Hall
Clark Thomas, Ph.D.

Nancy Watts

Lisa White


FIELD OFFICES

Lucille Cop
Vincent Greiber
Ianna Kachoris
Thomas Purvis
Graham Rawsthorn

         To obtain copies of this report, please call the Dallas Regional Office at 214-767-3310.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
June Gibbs Brown     //S
Inspector General

OIG Final Report: “Workplace Violence: Perceptions and Experiences of Local Public
Assistance and Child Support Enforcement Staff and Managers,” OEI-06-98-00044

Olivia A. Golden
Assistant Secretary for
  Children and Families


This report summarizes information we gathered about workplace violence from local public
assistance and child support enforcement staff. While examining workplace violence was not
an objective of our original data collection, the topic was raised during our pre-inspection
process as we gathered information about how local offices deal with clients who might
experience domestic violence. Although we did not attempt to comprehensively examine the
issue of workplace violence, we feel it is important to share the information provided us by
staff from approximately 99 local child support and 103 local public assistance offices in six
States - California, Georgia, Illinois, New Jersey, Texas, and Virginia.

BACKGROUND

       On March 5, 1997, Secretary Shalala issued a memorandum to the heads of all
       department operating divisions and staff divisions regarding the issue of violence in the
       workplace. According to the Secretary,

       “Every year approximately one million people are victims of nonfatal
       workplace violence. Most of these assaults occur in service settings such as
       hospitals, nursing homes, and social service agencies. Another 1,000 workers
       each year are victims of workplace homicide.”

       While the Secretary’s memorandum focuses on improving workplace safety in HHS
       agency offices, States and local jurisdictions also administer social service agencies and
       local offices where employees may encounter workplace violence. This memorandum
       provides information that may be useful to program officials for better understanding
       the potential for violence in local public assistance and child support offices.
PERCEPTIONS AND EXPERIENCES OF LOCAL STAFF

C    Many Managers Fear for the Safety of Their Staff

     Seventy-eight percent of local child support enforcement and 61 percent of local public
     assistance managers we surveyed responded positively to our question, “Do you ever
     have reason to fear for the safety of workers in your office?”

C	
C    While Actual Reported Violence is Rare, Some Incidents of Violence
     Have Occurred in Local Offices

     The majority of respondents indicate that, while they are constantly wary of sensitive
     circumstances that may escalate into violence, the actual incidences of violence in
     their offices have been rare. However, a few offices report greater frequency of
     threats and actual violent behavior. Staff of both agencies report threats of violence,
     including “verbal abuse, terroristic threats, bomb threats and death threats” and
     actual violence, including “aggressive behavior, fighting, altercations/injuries, and
     carrying guns and knives.”

     While our data do not allow us to measure the frequency of threats or actual violence
     that occurs in local offices, the language managers use to characterize their concerns
     indicates the wide range of local office experiences. While many managers say threats
     and violence occur “very occasionally” or “on rare occasions,” a few suggest the
     potential for violence is “constantly” or “regularly” present. One office manager
     reports that workplace violence has occurred “a considerable number of times.” One
     child support manager reports the most traumatic incident we heard about, “One of our
     absent parents just recently murdered a mental health employee. It could have just as
     easily been one of us.”

C
C	   A Variety of Stresses and Circumstances May Lead to Concerns About
     Potential Violence

     Staff report that the nature of their work often contributes to the stress levels of
     individuals they serve, potentially leading to threats of violence or actual violence.
     Managers report that when work circumstances are emotionally charged, clients and
     others may become “disgruntled, resentful, angry, irate, or hostile.” Additionally, a
     few respondents suggest that recent efforts to more strictly enforce public assistance
     program rules, as well as the addition of new child support enforcement tools, may be
     increasing the stress level of some clients and noncustodial parents. For example, one
     worker states, “With more enforcement tools available, noncustodial parents are
     getting angrier all the time. With the increased power provided to us to collect
     money, file liens, and seize assets, comes the greater risk that our actions may be all
     that is needed to push someone over the edge.”

                                             2

Child support staff report that enforcement actions such as wage withholding, lien filing, IRS
tax refund intercepts, bank asset seizures, and driver’s license or other license revocations add
to stress experienced by noncustodial parents. In cases in which paternity has not been
established, putative fathers may experience increased stress due to being required to appear
for genetic testing, being excluded as the father by paternity testing, or by a default order of
child support prior to paternity testing. Staff also report that requiring child support clients
who receive TANF grants to provide information about noncustodial parents, to appear in
court or for genetic testing, and to assign their children’s child support to the State may create
additional stress for these clients. Finally, when public assistance agency staff enforce program
rules such as work requirements and time limits or take adverse actions, such as sanctioning or
case closure, this may increase stress for public assistance clients.

       It is important to note that local staff report that it is generally only a small subset of
       the people they serve who create the most concern. Specifically, staff indicate that
       most threats or violent actions come from those with “violent histories, criminal
       records, substance abuse problems” and those who are “mentally and emotionally
       challenged.”

C      A Variety of Security Measures Designed to Reduce or Prevent
       Workplace Violence Are Used in Some Local Offices

       During on-site visits to local child support and public assistance offices, we observed
       several structural arrangements designed to reduce the risk of workplace violence
       including, security personnel inside and outside the building, locked entrances to staff
       work areas, enclosed receptionist work stations, and open-area interview locations.

       However, in many offices, staff conduct interviews in individual offices or cubicles.
       While these spaces allow privacy for workers to discuss sensitive issues, some workers
       voice concern that they are often out of sight of others and occasionally fear being too
       secluded in cases of potential violent reactions by clients and others.

       Some staff report some procedural efforts to reduce the risk of a violent incident. For
       example, one respondent mentions that in cases in which a client has a known violent
       history, “the computer is flagged so the worker is alerted.” However, other staff
       report concerns that security precautions are insufficient because of, “lack of proper
       security, lack of building security, no metal detectors, no panic button, and no bullet
       proof glass.”




                                                 3

CONCLUSION

    Workplace violence appears to be a concern for many managers in State and local child
    support and public assistance offices. While local office safety is primarily the
    responsibility of States, ACF may wish to discuss the extent and severity of workplace
    violence with its State partners with a view to promoting the development and sharing
    of strategies which effectively address this issue.

AGENCY COMMENTS

    OCSE has already begun a dialogue with the States on the risks of workplace violence
    and provided us with descriptions of its specific initiatives. These include two staff
    training videos on preventing workplace violence, a manager’s checklist of workplace
    security needs, plans for presentations at national conferences, and provisions for
    distributing continuing security bulletins to local office staff. OCSE has also begun
    development of a course for managers aimed at enhancing local office security.

    ACF comments and complete descriptions of these initiatives are provided in their
    entirety in Appendix A.




                                           4

APPENDIX A





    A-1

A-2

A-3

A-4

